         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       Vapor Intrusion Health Risks at
       Bannister Federal Complex Not a
       Concern for Buildings 50 and 52,
       Unknown for Other Buildings
       Report No. 11-P-0048

       January 5, 2011
Report Contributors:	                            Hilda Canes Garduño
                                                 Martha Chang
                                                 Michael Wilson
                                                 Eric Lewis




Abbreviations

DOE          U.S. Department of Energy
EPA          U.S. Environmental Protection Agency
GSA          U.S. General Services Administration
NNSA         National Nuclear Security Administration
OIG          Office of Inspector General
TCE          Trichloroethylene
VOC          Volatile organic compound


Cover photos:   from left to right: Bannister Federal Complex, GSA buildings 50 and 52.
                (EPA OIG photos)
                       U.S. Environmental Protection Agency 	                                               11-P-0048
                                                                                                       January 5, 2011
                       Office of Inspector General


                       At a Glance
                                                                            Catalyst for Improving the Environment


Why We Did This Review            Vapor Intrusion Health Risks at Bannister Federal
The U.S. General Services         Complex Not a Concern for Buildings 50 and 52,
Administration (GSA) Office       Unknown for Other Buildings
of Inspector General asked for
our assistance in responding to   What We Found
a congressional inquiry. We
                                  Testing at Bannister Federal Complex in February 2010 revealed elevated levels
evaluated EPA Region 7’s
                                  of volatile organic compounds (VOCs) in the soil vapor beneath the foundations
actions to (1) assess and
                                  of buildings 50 and 52. EPA Region 7 assisted GSA in evaluating the vapor
address the potential vapor
                                  intrusion risk for these buildings. Only trichloroethylene vapors were observed to
intrusion risk at Bannister
                                  be intruding into building 50 from the contaminated ground water. Building 50
Federal Complex buildings 50
                                  contains office space and building 52 has a child care facility.
and 52, and (2) characterize
the public health risk at
                                  Region 7 assessed the health risk from inhaling indoor air in the two buildings in
Bannister Federal Complex.
                                  accordance with EPA risk assessment procedures. The indoor air chemical
Background                        concentrations were below acceptable risk levels for both short- and long-term
                                  exposure for the 14 VOCs measured and, therefore, are not a health concern. As a
Bannister Federal Complex is      precaution, Region 7 recommended and reviewed the installation of soil vapor
a 310-acre federal property       removal systems in both buildings in February 2010. Subsequent testing in
located in Kansas City,           March 2010 showed that contaminant levels in the soil vapors beneath both
Missouri. Several                 buildings were reduced. Trichloroethylene levels in the indoor air of building 50
contaminated ground water         were also reduced.
plumes exist beneath the
complex. Both GSA and the         Although Region 7 conducted its assessment in accordance with EPA-approved
U.S. Department of Energy         procedures, additional actions would provide a more comprehensive picture of the
National Nuclear Security         chemical hazards in the indoor air and ground. These actions include testing for
Administration control the        additional VOCs and assessing total VOC exposure levels in the buildings.
site. The GSA Office of
Inspector General is              Not all of the other Bannister Federal Complex buildings with underlying or
responding to allegations that    nearby contaminant plumes have been assessed for soil vapor intrusion. As a
employees may have become         result, the public health risks in those buildings have not been determined.
sick due to chemical
exposures potentially             What We Recommend
occurring at the site.
                                  We recommend that Region 7 test for additional VOCs for all future air, soil
For further information,          vapor, soil, and ground water samples in and around buildings 50 and 52. After
contact our Office of             discussions with Region 7, we revised our second recommendation to continue
Congressional, Public Affairs
                                  oversight work by assessing the responsible parties’ efforts to evaluate inhalation
and Management at
(202) 566-2391.                   health risks at all other Bannister buildings over or near contaminated ground
                                  water plumes. Region 7 staff concurred with our recommendations and committed
To view the full report,          to completing actions that would meet the intent of both recommendations. In its
click on the following link:
                                  final response to this report, Region 7 should provide a corrective actions plan for
www.epa.gov/oig/reports/2011/
                                  both recommendations, including estimated or actual milestone completion dates.
20110105-11-P-0048.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                             THE INSPECTOR GENERAL




                                         January 5, 2011

MEMORANDUM

SUBJECT:	              Vapor Intrusion Health Risks at Bannister Federal Complex Not a
                       Concern for Buildings 50 and 52, Unknown for Other Buildings
                       Report No. 11-P-0048


FROM:                  Arthur A. Elkins, Jr.
                       Inspector General

TO:                    Karl Brooks
                       Regional Administrator, EPA Region 7


This is a report on the subject evaluation conducted by the Office of Inspector General (OIG) of
the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance
with established audit resolution procedures.

The estimated cost of this report, calculated by multiplying the project’s staff days by
the applicable daily full cost billing rates in effect at the time plus travel costs, is
$232,360.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. Your response will be posted on the OIG’s public website,
along with our comments on your response. Your response should be provided in an Adobe
PDF file that complies with the accessibility requirements of section 508 of the Rehabilitation
Act of 1973, as amended. If your response contains data that you do not want to be released to
the public, you should identify the data for redaction. You should include a corrective actions
plan for your actions, including milestone dates. We have no objections to the further release of
this report to the public. This report will be available at http://www.epa.gov/oig.
If you or your staff have any questions regarding this report, please contact Wade Najjum,
Assistant Inspector General for Program Evaluation, at 202-566-0832 or
najjum.wade@epa.gov; or Eric Lewis, Director, Special Reviews, Office of Program
Evaluation, at 202-566-2664 or lewis.eric@epa.gov.
Vapor Intrusion Health Risks at Bannister Federal Complex                                                                       11-P-0048
Not a Concern for Buildings 50 and 52, Unknown for Other Buildings


                                      Table of Contents 

   Introduction .................................................................................................................      1         


           Purpose ................................................................................................................    1             

           Background ..........................................................................................................       1             

           Noteworthy Achievements....................................................................................                 3             

           Scope and Methodology ......................................................................................                3


   Vapor Intrusion Assessed and Addressed Only at Buildings 50 and 52 of 

   Bannister Federal Complex........................................................................................                   5


           Air Sampling Performed to Assess Buildings 50 and 52 for Vapor Intrusion .......                                            5

           Soil Vapor Removal Systems Installed to Address Vapor Intrusion Into 

               Buildings 50 and 52........................................................................................             5

           Vapor Intrusion Not Assessed at Other Buildings With Underlying 

               Contamination Plumes ...................................................................................                6


   Health Risks Assessed According to Guidance, but Assessment 

   Could Be Improved ....................................................................................................              8


           Indoor Air at Buildings 50 and 52 Does Not Pose Health Risks from 

              Short- or Long-Term Exposure.......................................................................                      8

           Reporting Additional VOC Results Provides More Comprehensive 

              Assessment....................................................................................................           9

           Assessing Cumulative VOC Exposure Levels Provides Additional 

              Public Health Assurance ................................................................................                 9

           OIG Takes Precautionary Step by Assessing Early-Life Risk to 

              Children’s Health .............................................................................................         10 


   Conclusions and Recommendations ........................................................................                           11     


           Conclusions..........................................................................................................      11 

           Recommendations ...............................................................................................            11   

           EPA Region 7 Response to Draft Report and OIG Evaluation.............................                                      11 


   Status of Recommendations and Potential Monetary Benefits..............................                                            13     




Appendices 

   A       EPA Region 7 Response to Draft Report and OIG Evaluation ........................                                          14 


   B       Distribution .........................................................................................................     16     

                                   Introduction 


Purpose
            In February 2010, the U.S. General Services Administration (GSA) Office of
            Inspector General (OIG) contacted the U.S. Environmental Protection Agency
            (EPA) OIG to ask for assistance in responding to a congressional request from
            Missouri Senator Christopher (Kit) Bond. The congressional request was in
            response to allegations that employees at Bannister Federal Complex may have
            fallen ill due to exposure to hazardous contaminants. Our objectives were to
            evaluate:
                	 EPA Region 7’s efforts to assess and to address the potential vapor
                   intrusion risk at buildings 50 and 52 of Bannister Federal Complex.
                	 EPA Region 7’s actions to characterize the public health risk at Bannister
                   Federal Complex.

Background

            Bannister Federal Complex

            Bannister Federal Complex is a 310-acre federal property located in Kansas City,
            Missouri. The complex is controlled by both GSA and the U.S. Department of
            Energy’s (DOE’s) National Nuclear Security Administration (NNSA). Currently,
            more than 2,300 NNSA contract employees work at Bannister. Office and
            warehouse space not controlled by NNSA is owned and operated by GSA.
            Approximately 1,900 federal employees work in the nonmanufacturing space.
            NNSA plans to relocate to another facility starting in 2012. A GSA relocation is
            under discussion.

            In the past, aircraft engines were manufactured at the site. Currently, NNSA
            builds nonnuclear components for nuclear weapons and makes electrical,
            electromechanical, mechanical, and plastic components at the site. From 1942 to
            the mid-1970s, neither the chemicals used nor the solid waste disposal at
            Bannister were subject to modern standards for managing hazardous materials in
            the workplace or environment. From 1942 to 1964, the U.S. Department of
            Defense operated a landfill at Bannister to dispose of manufacturing waste. The
            wastes included solvents, metals, and petroleum, which ultimately contaminated
            the soil and ground water at the site.

            After ownership of Bannister transferred to DOE and GSA in 1976, DOE took
            action to control and clean up its portion of the property. GSA, for its part,
            conducted periodic sampling and analysis of soil, ground water, and air quality. In
            May 2008, a preliminary assessment and site inspection report was prepared for
            the GSA-managed portions of Bannister. The report recommended assessing the


11-P-0048                                                                                  1
            indoor air of buildings 50 and 52 for vapor intrusion and monitoring ground water
            near building 50 for any changes in contaminant concentrations. The report also
            made recommendations for other GSA-managed areas of Bannister.

            Vapor Intrusion

            Vapor intrusion is the migration of volatile chemicals from the subsurface into
            overlying buildings. Volatile chemicals in contaminated soil or ground water can
            emit vapors. The vapors may migrate through the subsurface soil as soil vapor and
            into the indoor air spaces of overlying buildings (figure 1).

            Figure 1: Pathway for subsurface vapor intrusion into indoor air




            Source: OSWER 2002 Draft Guidance for Evaluating the Vapor Intrusion to
            Indoor Air Pathway from Groundwater and Soils (Subsurface Vapor Intrusion
            Guidance).

                    Note: Nonaqueous phase liquids, or NAPLs, are contaminants 

                    that, like oil, do not dissolve readily in water. Their vapors may

                    migrate through the soil space of the vadose zone (the 

                    unsaturated zone above ground water) into overlying buildings, 

                    contaminating the indoor air.


            Current and former National Priorities List sites could have extensive vapor
            intrusion issues and pose a significant risk to the public. In 2002, EPA issued draft
            guidance based on its understanding at the time of vapor intrusion. The guidance
            included technical and policy recommendations for determining whether vapor
            intrusion posed a health risk at sites. In December 2009, the EPA OIG issued
            Report No. 10-P-0042, Lack of Final Guidance on Vapor Intrusion Impedes
            Efforts to Address Indoor Air Risks. We recommended that EPA issue final
            guidance to establish current Agency policy on the evaluation and mitigation of
            vapor intrusion risks. We also recommended that the Agency finalize toxicity
            values for trichloroethylene (TCE) and perchloroethylene—common
            contaminants associated with vapor intrusion. The Agency agreed with our
            recommendations and provided milestones. The Agency has committed to release
            the final vapor intrusion guidance by November 2012.


11-P-0048                                                                                    2
Noteworthy Achievements
            Region 7 assisted the Missouri Department of Natural Resources and GSA in
            January 2010 by reviewing GSA’s air sampling plan and providing sampling
            oversight. The Missouri Department of Natural Resources also requested that
            Region 7 evaluate risk management at the GSA portion of Bannister. Region 7
            determined that collaborating and sharing technical expertise, equipment, and
            resources with GSA would more rapidly and cost effectively assess and address
            the health risks in buildings 50 and 52.

            Region 7 signed an interagency agreement with GSA in March 2010, with
            activities beginning beforehand, to perform the following:
               	 Conduct a site reassessment focusing on buildings 50 and 52.
               	 Complete indoor air and vapor intrusion sampling, ground water sampling,
                  soil vapor and soil sampling, outdoor air sampling, and air quality
                  monitoring of these buildings.
               	 Provide technical and oversight support for the installation of soil vapor
                  removal systems in buildings 50 and 52 as a precautionary measure
                  against vapor intrusion.
               	 Provide support to GSA in public meetings and other community relations
                  activities.

            Region 7 also established an environmental work agreement with GSA in April
            2010 to address other issues identified in the 2008 preliminary assessment and site
            inspection report.

            To date, Region 7 conducted three of four rounds of sampling, recommended and
            supervised the installation of soil vapor removal and ventilation systems, and
            performed risk assessments for buildings 50 and 52. Region 7 also established a
            community advisory panel for Bannister.

Scope and Methodology
            We conducted our review from March to October 2010 in accordance with
            generally accepted government auditing standards. Those standards require that
            we plan and perform our review to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our objectives.

            To accomplish our objectives, we reviewed documents provided by the GSA OIG
            and EPA Region 7. We conducted interviews with relevant GSA OIG staff in



11-P-0048                                                                                  3
            Kansas City, Missouri, and EPA Region 7 staff in Kansas City, Kansas. We also
            reviewed federal statutes, regulations, and Agency guidance.

            We reviewed two rounds of sampling data collected by Region 7 in 2010 to assess
            the potential for vapor intrusion in buildings 50 and 52. We also identified and
            assessed the actions Region 7 took to address the risk for vapor intrusion. We
            evaluated Region 7’s health risk assessment in accordance with the EPA
            Superfund guidance document, Supplemental Guidance for Inhalation Risk
            Assessment. The assessment evaluates the amount of risk contributed from
            inhaling potential indoor air contaminants and not other routes of exposure.
            Henceforth, inhalation risk will be referred to as “health risk.”

            The primary contaminants of concern for vapor intrusion at Bannister are the
            volatile organic compounds (VOCs), particularly TCE and its byproducts,
            1,2-dichloroethylene and vinyl chloride. We conducted our evaluation for these
            primary contaminants of concern and the other VOCs tested.




11-P-0048                                                                                4
   Vapor Intrusion Assessed and Addressed Only at 

   Buildings 50 and 52 of Bannister Federal Complex 

            Region 7’s 2010 test results for vapor intrusion in buildings 50 and 52 showed
            elevated levels of VOCs in the soil vapor beneath the foundations of both
            buildings. However, only TCE vapors were observed to be intruding into building
            50 from the contaminated ground water. Chemical levels in the indoor air do not
            pose a health concern for either building. Building 50 contains office space and
            building 52 is primarily occupied by a child care facility. Region 7 addressed the
            issue of vapor intrusion by having GSA install soil vapor removal systems in both
            buildings. Subsequent testing showed that the soil vapors beneath both buildings
            were reduced. TCE levels in the indoor air of building 50 were also reduced.
            Contaminant plumes lie below or near other buildings at Bannister. These
            buildings have not all been tested for vapor intrusion. Consequently, the health
            risk for these other buildings has not been determined.

Air Sampling Performed to Assess Buildings 50 and 52 for Vapor 

Intrusion 

            Region 7 assessed buildings 50 and 52 for vapor intrusion and found contaminant
            vapors beneath both buildings and entering the air of building 50. Region 7 had
            agreed to conduct four rounds of sampling to determine whether subsurface
            contaminants are impacting, or have the potential to impact, the indoor air space
            of these buildings. Region 7 has completed four rounds of indoor air, outdoor air,
            and subslab soil vapor sampling. Our review assessed data from the first two
            sampling rounds only.

            The first round of vapor intrusion sampling in February 2010 confirmed that
            subsurface contaminants are volatilizing and migrating through the soil and
            collecting beneath the buildings’ foundations at elevated levels. However, only in
            building 50 did TCE demonstrate a complete vapor intrusion pathway from
            ground water to indoor air that cannot be attributed to background chemical
            sources. Background chemical sources arise from consumer products (e.g.,
            cleaning products and markers) typically found in residences. All detected
            contaminants were below levels for health concern in the indoor air.

Soil Vapor Removal Systems Installed to Address Vapor Intrusion Into
Buildings 50 and 52
            After test results showed elevated contaminant levels in the soil vapor, Region 7
            addressed vapor intrusion risks by having GSA install soil vapor removal systems
            in buildings 50 and 52 in February 2010. A soil vapor removal system creates
            negative pressure beneath a building and vents the contaminated vapors to the


11-P-0048                                                                                  5
            outside environment. EPA scientists and external consultants consider these
            systems reliable for controlling vapor intrusion. Soil vapor and indoor air results
            for samples taken after installation of these systems confirm that they are effective
            in decreasing contaminant levels.

            The second round of sampling in March 2010 showed a decrease in the elevated
            contaminant levels in the soil vapor beneath buildings 50 and 52. The TCE
            contaminant level in the indoor air of building 50 decreased after installing the
            soil vapor removal systems. Chemical levels in the indoor air of building 52
            remained constant after soil vapor removal system installation, confirming that
            soil vapor was not previously intruding into the building.

            Sampling results also identified one contaminant, TCE, above acceptable long-
            term exposure levels at a subsurface sampling location—the utility tunnel
            connecting buildings 50 and 1. Region 7 recommended installing ventilation fans
            in the unoccupied utility tunnel because vapor intrusion likely affected the area.
            The area may potentially serve as an alternate entry point for contaminants to
            migrate into the occupied building 50. GSA installed the fans in May 2010.

Vapor Intrusion Not Assessed at Other Buildings With Underlying
Contamination Plumes
            Vapor intrusion has not been assessed for the entire Bannister Federal Complex;
            therefore, the public health risk for the entire facility has not been determined.
            The National Priorities List assessment for Bannister occurred in 1987 and did not
            consider vapor intrusion as a potential exposure pathway. Past environmental
            investigations identified large contaminant plumes beneath or near other
            buildings. Except for DOE’s portion of building 1, the other buildings were likely
            not assessed for vapor intrusion (figure 2). For the same reason that vapor
            intrusion was a human health concern at buildings 50 and 52, vapor intrusion may
            also be a concern at other Bannister buildings.




11-P-0048                                                                                    6
Figure 2: Ground water contaminant plumes at Bannister




Source: U.S. Department of Energy Kansas City Plant, Groundwater Corrective Action Report for Calendar Year
2009.




11-P-0048                                                                                                     7
      Health Risks Assessed According to Guidance, 

           but Assessment Could Be Improved 

            Our assessment agrees with Region 7’s health risk assessment that the TCE levels
            in buildings 50 and 52 do not pose a potential health concern for children or
            adults. Our review also included a precautionary step of assessing early-life health
            risk for childhood exposure for building 52, which houses a child care facility.
            Region 7 concluded that contaminant levels in the indoor air in both buildings do
            not pose health risks from either short-term or long-term exposure. Region 7
            based this conclusion on its assessment of health risks in buildings 50 and 52
            conducted in accordance with EPA’s inhalation risk assessment guidance. Our
            review determined that Region 7 conducted its assessment in accordance with
            established risk assessment procedures. However, additional actions would
            provide a more comprehensive picture of the chemical hazards in the indoor air.
            These actions include testing and reporting the results of additional VOCs and
            assessing the cumulative exposure to multiple VOCs.

Indoor Air at Buildings 50 and 52 Does Not Pose Health Risks from
Short- or Long-Term Exposure
            Region 7 performed tests and concluded, according to guidance, that the indoor
            air at buildings 50 and 52 does not pose health risks from either short- or long-
            term exposure. Region 7 followed the 2009 EPA Superfund guidance,
            Supplemental Guidance for Inhalation Risk Assessment. The assessments were
            based on two rounds of indoor sampling results taken before and after installing
            the soil vapor removal systems. Uncertainties exist when estimating year-round
            indoor air quality conditions from two sampling events. Therefore, results from
            the remaining two sampling events this year will be needed to confirm Region 7’s
            conclusions.

            Several contaminants were detected at above-acceptable exposure levels at certain
            locations during the first round of indoor air sampling. Except for TCE in building
            50, these contaminants may be attributed to background sources within the
            buildings. Furthermore, the average contaminant levels in each building were all
            within acceptable levels and, therefore, are not health concerns.

            During the second round of sampling, only chloroform at one building 52 location
            and TCE in the subsurface air of the utility tunnel were detected at above-
            acceptable long-term exposure levels. The chloroform may be from background
            sources. Its average indoor concentration was within the acceptable level and
            therefore not a health concern. The TCE level is not a health concern because the
            utility tunnel is unoccupied and inhalation exposure is intermittent and of short




11-P-0048                                                                                   8
            duration. Region 7, however, recommended the installation of ventilation fans to
            prevent potential TCE migration into the indoor air of building 50.

Reporting Additional VOC Results Provides More Comprehensive
Assessment
            Region 7 assessed exposure to only a subset of potential VOCs present in
            buildings 50 and 52. Region 7 requested testing for only 14 VOCs in the air
            samples, instead of utilizing the full capability of the analytical method to test for
            up to 97 chemicals. Although results for the primary contaminants of concern
            were reported, indoor air typically contains over 50 chemicals. EPA guidance
            does not dictate which chemicals should be tested for at a site to characterize the
            chemical hazard. However, requesting the results for additional chemicals would
            be reasonable in cost, require minimal additional effort on the part of the Agency,
            and provide a fuller understanding of the extent of VOC exposure in buildings 50
            and 52.

            The soil and the ground water contaminant plume around buildings 50 and 52 can
            also be better understood with additional testing. Potential contaminant sources
            around the buildings have not been well defined in the past. Testing for additional
            chemicals in all media for all future sampling events, as allowed by their
            analytical methods, may alleviate potential concerns of additional VOC exposure
            and provide a more thorough picture of the contaminants around the buildings.

Assessing Cumulative VOC Exposure Levels Provides Additional
Public Health Assurance
            Region 7 assessed health risks due to short-term exposure in buildings 50 and 52
            based on exposure to individual contaminants and not on cumulative exposure to
            multiple contaminants. The region’s approach focuses on the health risks resulting
            primarily from the vapor intrusion of individual contaminants, such as TCE. This
            approach does not assess the health risks of short-term cumulative exposure from
            all sources. Such an approach may provide greater protection for the public
            health. An adverse cumulative VOC exposure level may have already occurred
            before any individual contaminant in indoor air reaches an unacceptable short-
            term risk level.

            Region 7 can provide additional public health assurance in the buildings by
            assessing the cumulative exposure levels for a wider range of VOCs. EPA has not
            developed criteria to evaluate health risks from short-term cumulative exposure,
            but recommends summing individual health risks to estimate the risk. Although
            this approach does not take into account potential synergistic chemical
            interactions, scientific literature suggests using total VOC exposure levels as an
            aid in limiting indoor contaminant concentrations. However, as risk levels for
            cumulative exposure have not been established, they cannot be used as a health
            risk indicator, and they do not provide definitive conclusions about indoor air


11-P-0048                                                                                      9
            quality. EPA should consider approaches for evaluating health risks due to
            cumulative exposure to multiple VOCs at Bannister to ensure a thorough
            assessment and commitment to a healthier indoor environment.

OIG Takes Precautionary Step by Assessing Early-Life Risk to
Children’s Health
            In the event that EPA determines TCE to be a carcinogen that is comparatively
            more toxic to children, we performed a precautionary early-life health risk
            assessment for childhood exposure to TCE. TCE is the primary contaminant of
            concern for vapor intrusion at Bannister. Building 52 has a child care center. We
            performed the early-life risk assessment in accordance with the 2005 EPA
            guidance document, Supplemental Guidance for Assessing Susceptibility from
            Early-Life Exposure to Carcinogens. Our results show that TCE levels in building
            52 for both rounds of indoor air sampling were within the acceptable early-life
            risk level for children. We calculated the acceptable exposure level for young
            children to be 2.5 micrograms per cubic meter. The maximum TCE level found
            for indoor air at building 52 for both rounds of sampling was 0.42 micrograms per
            cubic meter. The indoor air levels we reviewed for TCE in building 52 do not
            indicate an early-life health concern for children. This early-life health risk
            assessment is not a substitute for EPA’s risk assessments.




11-P-0048                                                                                 10
             Conclusions and Recommendations 

Conclusions
            Region 7 assessed the health risk from inhaling contaminated air in Bannister
            Federal Complex buildings 50 and 52 in accordance with EPA risk assessment
            procedures. Elevated levels of VOCs were detected beneath the foundations of
            both buildings. Only TCE was observed to be entering building 50 from the
            subsurface into indoor air via vapor intrusion. For the 14 VOCs measured in the
            indoor air, all were within acceptable risk levels for both short- and long-term
            exposure. Region 7 recommended that the vapor intrusion risk in both buildings
            be mitigated by the installation of soil vapor removal and ventilation systems. Not
            all of the other buildings at Bannister with underlying or nearby contaminant
            plumes have been assessed for vapor intrusion. Therefore, their public health risk
            has not been determined.

            Our review identified actions that can improve contaminant characterization.
            Testing for additional VOCs in air, soil vapor, soil, and ground water samples as
            established by EPA’s analytical methods would provide a more comprehensive
            picture of the contaminants in indoor air and the surrounding area. Furthermore,
            from a public health perspective, assessing total VOC exposure levels supports a
            commitment to a healthier work environment. Both improvements can be
            achieved and assessed with reasonable cost and minimal additional effort. Such
            efforts would provide greater assurance that the indoor contaminants at Bannister
            have been thoroughly assessed.

Recommendations
            We recommend that the Regional Administrator, Region 7:

                   1.	 Test for additional VOCs listed in the appropriate EPA-approved
                       analytical methods for all future air, soil vapor, soil, and ground water
                       samples in and around buildings 50 and 52.

                   2.	 As part of continuing oversight work, assess the responsible agencies’
                       efforts to fully evaluate the health risks from inhaling potentially
                       contaminated air for all buildings over or within close proximity of
                       contaminated ground water plumes at Bannister Federal Complex.

EPA Region 7 Response to Draft Report and OIG Evaluation
            Region 7 indicated in its response to the draft report that it has already undertaken
            efforts to address both of our recommendations. The region included additional
            VOCs in its analysis of indoor air and subslab air samples for the third round of


11-P-0048                                                                                     11
            sampling. The region also signed an environmental work agreement with GSA to
            provide oversight in investigating and managing environmental conditions at
            other GSA-managed facilities.

            In its official response, Region 7 did not agree or disagree with either of the
            recommendations in the report but did describe actions it had taken that partially
            address our recommendations. We recommended testing future soil and ground
            water samples for additional VOCs, not just indoor air and soil vapor samples.
            The region provided no indication that it will test for additional VOCs for ground
            water and soil samples. Ground water and soil should be tested for additional
            VOCs to better characterize the contamination around buildings 50 and 52.

            In addition, our second recommendation to evaluate inhalation health risks is not
            limited to only GSA-managed facilities at Bannister. Other buildings in the
            complex, managed by other federal entities, were not assessed for vapor intrusion.
            Region 7 should evaluate inhalation health risks at non-GSA-managed buildings
            overlying or near contamination plumes in the complex.

            In followup discussions, Region 7 concurred with both our recommendations after
            revision to one of the recommendations and committed to completing actions that
            would meet the intent of both recommendations. For our first recommendation,
            Region 7 tested for total VOCs in buildings 50 and 52 during the third round of
            indoor air and soil vapor sampling held August 6–8, 2010. Region 7 indicated that
            the fourth round of indoor air and soil vapor sampling, held November 19–21,
            also tested for total VOCs, and that the region plans to test for total VOCs in
            ground water and soil samples taken on December 6–20, 2010. Confirmation lab
            reports were not yet available for these sampling events.

            For our second recommendation, Region 7 indicated that it has requested indoor
            air monitoring results from DOE to evaluate the inhalation health risks at all non­
            GSA-managed buildings over or within close proximity of contaminated ground
            water plumes.

            In its final response to this report, Region 7 should provide a corrective actions
            plan for both recommendations, including estimated or actual milestone
            completion dates.




11-P-0048                                                                                        12
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                               POTENTIAL MONETARY
                                                      RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                   Planned
    Rec.    Page                                                                                                  Completion   Claimed    Agreed-To
    No.      No.                           Subject                            Status1       Action Official          Date      Amount      Amount

     1       11     Test for additional VOCs listed in the appropriate          O       Regional Administrator,
                    EPA-approved analytical methods for all future air,                       Region 7
                    soil vapor, soil, and ground water samples in and
                    around buildings 50 and 52.

     2       11     As part of continuing oversight work, assess the            O       Regional Administrator,
                    responsible agencies’ efforts to fully evaluate the                       Region 7
                    health risks from inhaling potentially contaminated
                    air for all buildings over or within close proximity of
                    contaminated ground water plumes at Bannister
                    Federal Complex.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




11-P-0048                                                                                                                                       13
                                                                                 Appendix A

         EPA Region 7 Response to Draft Report and
                      OIG Evaluation




Elizabeth Grossman
Deputy Assistant Inspector General for Program Evaluation
Acting Product Line Director for Special Reviews
United States Environmental Protection Agency
Office of the Inspector General
Office of Program Evaluation

Dear Ms. Grossman:

       Thank you for your providing us with the Draft Evaluation Report, “Vapor Intrusion
Health Risks at Bannister Federal Complex Not a Concern for Buildings 50 and 52, Unknown
for Other Buildings,” Project No. OPE-FY10-0014. We have reviewed the report, and its two
substantive recommendations:

       	 Test for additional VOCs listed in the appropriate EPA-approved analytical methods
          for all future air, soil vapor, soil, and ground water samples in and around buildings
          50 and 52; and

       	 Require the responsible agencies to fully evaluate the health risks from inhaling
          potentially contaminated air for all buildings over or within close proximity of
          contaminated ground water plumes at the Bannister Federal Complex.

       You will be pleased to find out that the Region has already undertaken efforts that
address both of these recommendations. Additional VOCs were included in the analysis of
indoor air and subslab air samples for the most recent, i.e. third round, of sampling. As noted in
your draft report, the Region also signed an Environmental Working Agreement with the General
Services Administration. This agreement outlines a plan to further investigate and manage
environmental conditions at other GSA-managed facilities within the Bannister Federal
Complex, including those affected by ground water plumes. GSA will perform site


11-P-0048                                                                                     14
investigations, removal assessments and response actions under EPA oversight with work
scheduled to begin in the near future.

I would also like to ask you to convey our thanks to your staff who participated in this review.
We appreciated their professionalism and courtesy, as well as their flexibility given the
challenging calendar constraints.




11-P-0048                                                                                          15
                                                                            Appendix B

                                      Distribution

Office of the Administrator
Assistant Administrator, Office of Solid Waste and Emergency Response
Regional Administrator, Region 7
Director, Environmental Services Division, Region 7
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Followup Coordinator, Office of Solid Waste and Emergency Response
Audit Followup Coordinator, Region 7




11-P-0048                                                                           16
